                      Audit of Estimating System and
                        Related Internal Controls

                                  June 2005

                     Reference Number: 2005-1C-063




  This report has cleared the Treasury Inspector General for Tax Administration
disclosure review process and information determined to be restricted from public
                 release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                            June 27, 2005


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Audit of Estimating System and Related Internal Controls
                              (Audit #20051C0218)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s Federal Sector
       December 22, 2004, estimating system to assure the contractor’s estimating system
       and related internal controls comply with applicable laws and regulations, and are
       effective, adequate, and operating effectively.
       The DCAA indicated that it is the contractor’s policy to not provide the DCAA with
       internal audit reports and workpapers. The DCAA also said the contractor’s policy limits
       its ability to assess the effectiveness of the contractor’s internal audit function in
       monitoring their organizational, accounting, and operational controls. According to the
       DCAA, without access to internal audit workpapers, it was unable to verify whether the
       contractor’s internal audits covered the appropriate compliance steps, or whether the
       internal auditors identified concerns that they would consider reportable.
       The DCAA opined that except for the qualification described above, the estimating and
       related internal control policies and procedures of the contractor’s Federal Sector are
       adequate. The DCAA examined only the estimating system. Accordingly, the DCAA
       expresses no opinion on the contractor’s system of internal controls taken as a whole.
       The information in this report should not be used for purposes other than those intended
       without prior consultation with the Treasury Inspector General for Tax Administration
       regarding their applicability.
                                          2




If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
